SOUTHBAY UNITED PENTECOSTAL CHURCH, et al.
v.
GAVIN NEWSOM, Governor of California, et al.
Docket No. 20A136
CERTIFICATE OF SERVICE
I, Jeffrey P. Michalowski, counsel of record for Respondents, Wilma J.
Wooten, in her official Capacity as Public Health Officer, County of San Diego,
Helen Robbins-Meyer, in her official capacity as Director of Emergency Services,
County of San Diego, and William D. Gore in his official capacity as Sheriff, County
of San Diego, served 1 package containing SAN DIEGO COUNTY DEFENDANTS’
JOINDER IN STATE OF CALIFORNIA’S CONSOLIDATED OPPOSITION TO
EMERGENCY APPLICATIONS FOR WRIT OF INJUNCTION on January 29,
2021 via electronic filing and priority U.S. mail on the following counsel:
Charles S. LiMandri
LIMANDRI & JONNA LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
Phone: (858) 759-9930
Email: cslimandri@limandri.com

Helen H. Hong
California Department of Justice,
Office of Solicitor General
600 West Broadway Street,
Suite 1805
San Diego, CA 92101
Phone: (619) 738-9693
Email: helen.hong@doj.ca.gov

Alexander J. Luchenitser
Americans United for Separation of
Church and State
1310 L St. NW, Suite 200
Washington, DC 20005
Phone: (202) 466-7306
Email: luchenitser@au.org

The Becket Fund for Religious Liberty
1919 Pennsylvania Avenue, NW
Suite 400
Washington, DC 20006
Phone: (202) 955-0095
Email: erassbach@becketlaw.org

j

By:

\

All parties required to be served have been served by priority U.S. mail.
JEFFREY P. MICHALOWSKI
Counsel of Record
Office of County Counsel
1600 Pacific Highway, Room 355
San Diego, CA 92101
(619) 531-4886
Jeffrey.michalowski@sdcounty.ca.gov

